DOE/IG-0421



         AUDIT
        REPORT


                                 THE DEPARTMENT OF ENERGY’S
                                INTERAGENCY AGREEMENT WITH
                                  THE NATIONAL INSTITUTE OF
                                    ENVIRONMENTAL HEALTH
                                          SCIENCES




                                            JULY 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                              July 21, 1998

MEMORANDUM FOR THE ACTING SECRETARY

FROM:          Gregory H. Friedman
               Acting Inspector General

SUBJECT:       INFORMATION: Audit Report on "The Department of Energy's Interagency Agreement
               with the National Institute of Environmental Health Sciences"


BACKGROUND

The Department of Energy (Department) and the National Institute of Environmental Health Sciences
(NIEHS) entered into an interagency agreement in September 1992 to develop model safety and health
training programs for workers involved in waste cleanup activities at Departmental facilities. Under the
terms of the agreement, recipients of NIEHS training grants were to provide Hazardous Waste
Operations and Emergency Response (HAZWOPER) training to Departmental sites. By June 1997, the
Department had obligated over $40 million to the agreement. The objective of this audit was to
determine whether the interagency agreement with NIEHS was the most cost-effective method of
acquiring the training.

RESULTS OF AUDIT

The agreement with NIEHS was not the most cost-effective method of acquiring HAZWOPER training.
The rates charged by NIEHS grantees were higher than the rates available from other nonprofit
organizations that were capable of providing the training. The Department entered into the agreement
without first determining whether the training could be acquired more economically by awarding grants
directly to nonprofit organizations. Also, the Department paid NIEHS through an automated withdrawal
system without verifying the reasonableness of the payments. As a result, the Department incurred
$6 million more than necessary for training in Fiscal Year (FY) 1996. We recommend that the Deputy
Assistant Secretary for Site Operations, Office of Environmental Management either terminate the
interagency agreement with NIEHS and award grants directly to nonprofit organizations, or modify the
terms of the agreement to require that training costs closely resemble prices available from competitive
nonprofit organizations.

MANAGEMENT REACTION

Management did not concur with the finding or recommendation, stating that insufficient justification
existed to challenge what it perceived to be Congressional direction and preference. We found, however,
that the Congressional direction referred to did not preclude the use of cost-effective alternatives to
provide the required hazardous waste training. Management also stated that the finding was not
                                               -2-




supported by the record. Based on these comments, we performed additional analysis and
reconfirmed the accuracy of the cost data included in this report. Finally, management’s comments
indicated that the Department is working with NIEHS to improve reporting requirements and to
require NIEHS to make cost a criterion for award evaluations. We believe this is a positive step.


Attachment

cc: Deputy Secretary
    Under Secretary




-
THE DEPARTMENT OF ENERGY'S INTERAGENCY
AGREEMENT WITH THE NATIONAL INSTITUTE OF
ENVIRONMENTAL HEALTH SCIENCES


TABLE OF
CONTENTS



                Overview

                Introduction and Objective .........................................................1

                Observations and Conclusions...................................................1



                Interagency Agreement not Cost-Effective

                Details of Finding ......................................................................3

                Recommendation and Comments .............................................4


                Appendix

                Scope and Methodology ............................................................7
Overview

INTRODUCTION AND   The Department entered into an interagency agreement with NIEHS in
OBJECTIVE          September 1992 to develop and provide model safety and health training
                   programs for workers involved in waste cleanup at Departmental
                   facilities. Congress established the training programs in Section 3131 of
                   the National Defense Authorization Act for FYs 1992 and 1993.
                   Section 3131 authorized the Department to award grants to nonprofit
                   organizations to provide training and education for workers who are or
                   may be engaged in the cleanup of hazardous substances or emergencies
                   at nuclear weapon facilities. Section 3131 stated that the Department
                   should give preference to worker organizations and joint labor
                   management training programs that were grant recipients under Section
                   126 of the Superfund Amendments and Reauthorization Act of 1986
                   (Superfund Act). Congress gave NIEHS the responsibility for initiating
                   a training grants program under Section 126 of the Superfund Act.

                   The interagency agreement was established for a 5-year period which
                   ended September 9, 1997. Under the terms of the agreement, recipients
                   of NIEHS training grants were to provide HAZWOPER training to
                   workers at Departmental sites. The Department obligated over
                   $40 million to the agreement.

                   In September 1997, the Department entered into a new 5-year
                   agreement with NIEHS, continuing the performance period through
                   September 30, 2002. The basic award was for $8 million; however,
                   management stated that the new agreement could eventually cost
                   $40 million.

                   The audit objective was to determine whether the interagency agreement
                   with NIEHS was the most cost-effective method of acquiring
                   HAZWOPER training.

                   The agreement with NIEHS was not the most cost-effective method of
                   acquiring HAZWOPER training. The rates charged by NIEHS grantees
OBSERVATIONS AND   were higher than the rates available from other nonprofit organizations
CONCLUSIONS        that were capable of providing similar training. The Department entered
                   into the agreement without first determining whether the training could
                   be acquired more economically by awarding grants directly to nonproft
                   organizations. Also, the Department paid NIEHS through an automated
                   withdrawal system without verifying the reasonableness of payments.
                   As a result, the Department incurred $6 million more than necessary for
                   training in FY 1996. The audit identified material internal control
                   weaknesses that management should consider when preparing the
                   yearend assurance memorandum on internal controls.

Page 1                          The Department of Energy's Interagency Agreement
                        With the National Institute of Environmental Health Sciences
                                     Office of Inspector General


                                             /s/




Page 2           The Department of Energy's Interagency Agreement
         With the National Institute of Environmental Health Sciences
INTERAGENCY AGREEMENT NOT COST-EFFECTIVE


Local Nonprofit           The rates charged by NIEHS grantees were significantly higher than the
Organization Could        rates charged by other nonprofit organizations for similar training. The
Have Provided Similar     grantees charged an average of $32.67 per hour for training provided
Training for About        Departmentwide in FY 1996. However, we determined that local
One-Third the Cost        nonprofit organizations could have provided similar training for an
                          average of about $11.25 per hour at Savannah River, Richland, and Oak
                          Ridge.

                          The nine grantees that provided the training charged between $19.69
                          and $70.85 per hour Departmentwide. Six of the grantees were labor
                          unions, two were college consortiums, and one was an occupational
                          health center. However, nonprofit colleges near Savannah River,
                          Richland, and Oak Ridge charged between $9.48 and $13.29 per hour
                          for similar or identical courses. The colleges provided HAZWOPER
                          training to Savannah River, Richland, and Oak Ridge in prior years and
                          were providing similar training to other customers at the time of our
                          audit.

                          Subpart 17.5 of the Federal Acquisition Regulation prescribes policies
Federal Regulations
                          and procedures applicable to interagency acquisitions. At the time the
Require That
                          Department entered into its first agreement with NIEHS, the regulation
Interagency
                          required that interagency acquisitions be supported by written
Agreements be in the      determinations that the agreements were in the best interest of the
Government's Best         Government. The regulation was revised in October 1995 to add a
Interest                  requirement for a written determination that the supplies or services
                          being acquired could not be obtained as conveniently or economically by
                          contracting directly with non-Government sources. This requirement
                          was established almost 2 years before the Department entered into its
                          follow-on agreement with NIEHS.

                          The Department made a written determination that the interagency
Department Did Not
                          agreement with NIEHS was in the Government's best interest.
Ensure the Agreement
                          However, the Department did not perform sufficient analysis to ensure
Was in the Government's   that the training was, in fact, in the Government's best interest. The
Best Interest             Department did not compare the cost of training provided by the
                          grantees to the cost of training available from nonprofit organizations
                          near the sites. Instead of soliciting bids and comparing prices for
                          specific courses or training programs, the Department elected to acquire
                          all HAZWOPER training through the NIEHS agreement. The
                          Department did not perform cost analyses in September 1992, when the
                          original agreement was awarded, nor in September 1997, when the
                          follow-on agreement was awarded.


Page 3                                                                        Details of Finding
                          The Department reimbursed NIEHS through an automatic withdrawal
Department Reimbursed     system without verifying the reasonableness of the payments.
NIEHS Without Verifying   Requests for payment under the interagency agreement are not
the Reasonableness of     subject to audit or certification before the payments are made. The
Payments                  Department’s Program Official is responsible for alerting the
                          Controller’s Office to make adjustments for inappropriate payments
                          in the event errors are detected after payment. Under the terms of the
                          agreement, NIEHS was required to provide annual reports to the
                          Program Official showing the amounts billed by individual grantees
                          during the year. The Project Manager, when interviewed, did not
                          have a copy of the annual reports for FY 1996 or prior years. Also,
                          when the FY 1996 report was obtained, the report did not include the
                          amounts billed by individual grantees during the year.

                          As a result of this condition, the Department incurred $6 million more
                          than necessary for training in FY 1996. The grantees charged $9.1
Training Costs Were       million for training that could have been obtained for
Excessive                 $3.1 million from local nonprofit organizations. At Savannah River,
                          Richland, and Oak Ridge, the Department incurred $4.4 million for
                          training that could have been provided by other nonprofit
                          organizations for $1.4 million, for a savings of $3 million. We
                          compared the cost of training reported by the NIEHS grantees to the
                          cost of training using the average hourly rates available from local
                          non-profit organizations. The other Departmental sites incurred $4.7
                          million for training that could have been provided for
                          $1.7 million, for a savings of $3 million. We compared the cost of
                          training available from NIEHS grantees at the other sites to the
                          estimated cost of training using the average hourly rate of $11.25
                          available from nonprofit organizations at Savannah River, Richland,
                          and Oak Ridge.

                          We recommend that the Deputy Assistant Secretary for Site
                          Operations, Office of Environmental Management either terminate
RECOMMENDATION            the interagency agreement with NIEHS and award grants directly to
                          nonprofit organizations, or modify the terms of the agreement to
                          require that training costs closely resemble prices available from
                          competitive nonprofit organizations.




Page 4                                                    Recommendation and Comments
MANAGEMENT REACTION   The Office of Environmental Management did not concur with the
                      finding or recommendation, stating that the finding was not supported
                      by the record, and that insufficient justification existed to challenge
                      Congressional direction and preference.

                      Management did not agree that local colleges could provide similar
                      training for less cost than NIEHS. Management stated that the rates
                      proposed by the local colleges were unrealistically low. Management
                      believed that the colleges' instructors would be paid near minimum
                      wages and insufficient funds would be available to pay for indirect
                      costs. Additionally, management stated NIEHS did not charge a fee
                      for the administration of the grants, and the Department would have
                      to absorb such costs if it were to administer the grants directly.
                      Further, management stated that the Department recently awarded a
                      performance-based contract with a training rate that was eight times
                      more expensive than the average NIEHS rate, thus demonstrating the
                      cost-effectiveness of the NIEHS agreement.

                      Also, management stated that the NIEHS agreement was in the
                      Government's best interest. Management stated that 14 months
                      before the agreement was executed, the Department evaluated the
                      suitability of the NIEHS training program and concluded that the
                      program's technical quality was suitable to meet the Department's
                      needs. Further, management believed that NIEHS fully complied
                      with Federal competition requirements in awarding the grants.

                      Finally, management stated that the Department has made significant
                      improvements to the agreement with NIEHS. The Department will
                      assist NIEHS to evaluate grantees' proposals and will accompany
                      NIEHS on training review visits. Also, the Department is working
                      with NIEHS to improve reporting requirements and to require
                      NIEHS to make cost a criterion for award evaluations.

                      Section 3131 required the Department to give preference to worker
AUDITOR COMMENTS      organizations and joint labor management training programs
                      administered by NIEHS. However, it did not preclude the use of
                      cost-effective alternatives, such as awarding grants directly to
                      qualified nonprofit organizations.


                      The local colleges' rates were calculated based on the actual cost of




Page 5                                                   Recommendation and Comments
         HAZWOPER training per student hour— not the average wage rate
         for instructors. Also, NIEHS did, in fact, charge the Department an
         administrative fee of about $260,000 for administering the grants
         under the first interagency agreement. Further, we reviewed the
         performance-based contract referenced by management and found
         that management's calculation of the training rate was in error. The
         rate in the new contract was actually $19.70 per student hour, which
         was substantially less than the average NIEHS rate of $32.67 per
         hour and not 8 times higher.

         We agree that the Department performed a technical analysis of the
         NIEHS training program before the initial agreement was established.
         However, the Department did not perform a cost analysis to
         determine if the NIEHS agreement was the most cost-effective
         alternative for meeting HAZWOPER training requirements.
         Therefore, we concluded that the Department did not perform
         adequate analysis to fully determine whether the interagency
         agreement was in the Government's best interest.

         Finally, we are concerned that the actions taken by management in
         recent months may not be enough to cause NIEHS grantees' rates to
         be comparable to the rates available from competitive nonprofit
         organizations. Additionally, we are concerned that the Department's
         vulnerability to unnecessary training costs may have increased after
         September 1997 because the new NIEHS agreement expanded the
         scope of work to permit training in areas other than HAZWOPER
         subjects.




Page 6                                     Recommendation and Comments
Appendix 1

SCOPE         The audit was performed from June 3, 1997, to February 27,1998, at the
              following locations: Departmental Headquarters in Washington, D.C.,
              and Germantown, Maryland; Savannah River Operations Office in
              Aiken, South Carolina; Richland Operations Office in Richland,
              Washington; Oak Ridge Operations Office in Oak Ridge, Tennessee;
              NIEHS in Raleigh, North Carolina; Laborers/Associated General
              Contractors in Pomfret Center, Connecticut; and International Union of
              Operating Engineers in Washington, D.C. We tested grantees' training
              records for September 1, 1995, through August 31, 1996, at the
              Savannah River, Richland, and Oak Ridge Operations Offices.

              To accomplish the audit objective, we:
METHODOLOGY
                     • Reviewed Federal regulations governing interagency
                       agreements;

                     • Examined Federal and Departmental training requirements
                       and training curriculum guidelines for hazardous waste
                       training;

                     • Evaluated the terms of the Department's interagency
                       agreement with NIEHS;

                     • Analyzed grant files at NIEHS related to the Department's
                       interagency agreement;

                     • Visited two grantees to verify the training hours reported and
                       billed to NIEHS for the Department's training program; and

                     • Compared the training hours on the grantees' training rosters
                       with training hours reported in the contractors’training
                       management systems at the individual sites.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of Departmental policies, procedures, and
              responsibilities for establishing interagency agreements and monitoring
              training received and billed under the NIEHS interagency agreement.
              Because our review was limited, it would not necessarily have disclosed




Page 7                                                      Scope and Methodology
         training received and billed under the NIEHS interagency agreement.
         Because our review was limited, it would not necessarily have disclosed
         all internal control deficiencies that may have existed at the time of our
         audit. We did not conduct a reliability assessment of computer-
         processed data because only a very limited amount of computer-
         processed data was used during the audit.




Page 8                                                 Scope and Methodology
                                                                               IG Report No. DOE/IG-0421

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
